n^0~(84 o$

l

InThe

FILED

i£>upretne Court of tlje OHniteb £?tat«f

oct

2 6 2020

OFFICE OF THE CLERK
qi iPRFMF COURT. U.S.

In The Matter Of: Donald H. Grodsky, debtor

John L. Howell, et al., petitioners
V.

David V. Adler, etal., respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Petition For a Writ of Certiorari

FILED ON BEHALF OF
JOHN HOWELL, Petitioner
5847 CATINA STREET
NEW ORLEANS, LOUISIANA 70124
(985) 807-6655
NOVEMBER 2020

/

Question Presented
Petitioner filed two suits against "well-connected” Defendants who the bankruptcy court
wished to "protect.” The first was a "non-core” action for damages caused by Defendants'
constitutional violations, torts, and crimes [including pendant state claims). The second was a
"core-proceeding” seeking damages under 11 U.S.C. §362[k) for Defendants' willful violations of
the automatic bankruptcy stay. The bankruptcy court dismissed both suits with prejudice (the
"core-proceeding” was dismissed sua sponte) and enjoined Petitioner from raising his claims in a
court of competent jurisdiction. On appeal, the suits were consolidated. Upholding dismissal, the
5th Circuit crafted an opinion that appears to conform to established law and legal precedent.
However, if one scratches the surface, the ruling evidences just how far federal courts will depart
from the accepted and usual course of judicial proceedings, or sanction such departures, to shield
a particular set of (preferred] defendants from liability. The question presented is:
To deny a plaintiff's constitutional right to due process and prohibit suit against a particular
set of defendants who it wishes to shield from liability, may the lower court:
a) confer Art. Ill powers of United States courts on an Art. I court of limited jurisdiction;
b) sanction "Barton injunctions" that prohibit plaintiffs from bringing "non-core”
claims (including pendant state claims) in courts of competent jurisdiction and
prohibit state courts from reviewing their own state-court interlocutory orders or
entering any judgments related to those orders;
c) refuse to proceed on the assumption that factual allegations in a complaint are true;
d) extend quasi-judicial immunity to defendants who are not "government officials”
nor agents of "government officials” entitled to "derivative” immunity;
e) extend "retroactive" "derivative" quasi-judicial immunity to defendants who, after
engaging in a pattern of tortious and criminal misconduct for 3 years, were
subsequently employed by their Co-Defendant/U.S. trustee so that, as "courtappointed” officers, they could assert his affirmative defense of qualified immunity;
f) hold that qualified immunity shields defendants from liability for blatant violations of
clearly established law; and
g) refuse plaintiff an opportunity to amend his complaints before subjecting them to
prejudicial (and sua sponte) dismissal?

ii

Parties To This Proceeding
Plaintiffs/Petitioners:

John L. Howell, pro se
Elise LaMartina, pro se

Defendant/Respondent:
Adler’s Counsel/Co-Defendants:

David V. Adler, U.S. Trustee
David J. Messina, Fernand L. Laudumiey IV
Chaffe McCall, L.L.P.
Gordon, Arata, Montgomery, Barnett, McCollam,
Duplantis, & Eagan, LLC,
Leslie S. Bolner, Glen R. Galbraith,
Seale & Ross, PLC.

Defendants/Respondents:

David J. Messina, pro se
Fernand L. Laudumiey TV, pro se
Glen R. Galbraith, pro se
Leslie S. Bolner, pro se

Defendant/Respondent:

Gordon, Arata, Montgomery, Barnett,
McCollam, Duplantis, & Eagan, LLC
C. Peck Hayne Jr.

Its Counsel:
Defendant/Respondent:
Its Counsel:

Chaffe McCall, L.L.P.
David J. Messina, Fernand L. Laudumiey IV

Defendant/Respondent:
Its Counsel:

Seale & Ross, PLC
Glen R. Galbraith, Leslie S. Bolner

Defendant/Respondent:

Lake Villas Number 2 Homeowners
Association, Inc.
Glen R. Galbraith, Lesli S. Bolner, Seal & Ross, PLC

Its Counsel:
Defendant/Respondent:

Donald H. Grodsky, pro se

Defendant/Respondent:
Its Counsel:

Office of United States Trustee
U.S. Attorney, Peter G. Strasser
Assistant U.S. Attorney, Glenn K. Schreiber

Related Proceedings
•
•

Howell v. Adler et al., No. 20-30417, U.S. Court of Appeals for the Fifth Circuit. Judgment
entered August 4, 2020.
Howell v. Adler et al., No. 20-30223, U.S. Court of Appeals for the Fifth Circuit. Judgment
entered June 1, 2020.

iii

Table Of Contents
QUESTION PRESENTED

1

PARTIES

11

RELATED PROCEEDINGS

11

TABLE OF CONTENTS

in

INDEX TO APPENDICES

IV

TABLE OF CITED AUTHORITIES

IV

PETITION FOR WRIT OF CERTIO ARI

1

OPINIONS BELOW

2

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

7

I.

The lower court conferred Article III powers of United States courts on a court of
limited jurisdiction created by Congress under Article I of the U.S. Constitution..........

7

- Bankruptcy courts are courts of limited jurisdiction whose scope is statutorily defined and
they do not possess Article III powers or jurisdiction of United States courts.
- The court of first instance lacked jurisdiction to adjudicate Petitioner's “non-core” claims;
enjoin Petitioner from bringing his “non-core” claims in a court of competent jurisdiction;
and prohibit a state court from reviewing or reversing its own interlocutory order.
II. The lower court granted ^Mast-judicial immunity to Respondents who are not entitled
to raise qualified immunity as an affirmative defense to liability....................................

12

- Defendants, who are neither “government officials” nor “court-appointed” agents or
employees of “government officials,” may not assert qualified immunity as an affirmative
defense to liability.
- “Derivative” qualified immunity does not shield Defendants from liability (retroactively)
for torts and crimes committed during a three (3) year period prior to their (subsequent)
employment by their Co-Defendant/U.S. Trustee as his “court-appointed” counsel.
- Qualified immunity does not shield defendants from liability for violations of established law.
III. The lower court refused to proceed on the assumption that allegations in Petitioner's
complaint are true..................................................................................................................

22

IV. The lower court abandoned the principle of party presentation, reduced Petitioner’s
suit to a single, moot, claim which it found objectionable, and dismissed suit without
affording Petitioner an opportunity to amend his complaint...........................................

23

CONCLUSION

28

iv

Index To Appendices
Appendix A - Fifth Circuit Panel Decision,

la

Appendix B - District Court's Order Dismissing Case

4a

Appendix C - Bankruptcy Court's Order and Injunction

5a

Appendix D - Appendices and Petition Incorporated by Reference....................

7a

Appendix E - Excerpt of Factual Allegations in Petitioner's Original Complaint

8a

Appendix F - Constitutional and Statutory Provisions Involved

22a

Table Of Cited Authorities
Cases
Ashcroft v. Iqbal, 129 S.Ct. 1937, 173 L.Ed 2d 868, 556 U.S. 662, 77USLW4387 (2009)

22

Barton v. Barbour, 104 U.S. 126, 26 L.Ed. 672 (1881)

9,21

Baptist Medical Center ofNew York v Singh, 80 BR. 637, 644 (Bankr. EDNY 1987)

9

Barnett v. Stern, 909 F.2d 973 (7th Cir. 1978)

25

Bazrowxv. Scott, 136 F.3d 1053 (5th Cir. 1998)

23

Bell Atlantic Corporation v. Twombly, 550 U.S. 544, 127 S.Ct. 1955 (2007)

22

C.f, Matter ofOndova Ltd. Co., 941 F.3d 990, 993 (5th Cir. 2019)..............

17

Castro v. United States, 540 U. S. 375, 381-383 (2003)

24

Conley v. Gibson, 355 U.S. 41, 48, 78 S.Ct. 99, 103, 2L.Ed.2d 80....................................

23

eBay, Inc. v. MercExchange, L.L.C., 547 U.S. 388,26 S.Ct. 1837,164 L.Ed.2d 641 (2006)

9

Foman v. Davis, 371 U.S. 178, 83 S.Ct. 227,9L.Ed. 2d 222 (1962)..................................

23

Gomez v. Toledo, 446 U.S. 635,100 S.Ct. 1920,64 L.Ed.2d 572 (1980)

12

Greenlaw v. United States, 554 U. S. 237 (2008)

,24

Harlow v. Fitzgerald, 457 U.S. 800, 815, 73 L.Ed.2d 396, 102 S.Ct. 2727 (1982)

12,13,15,
17,18
21

Hills v. Parker, 111 id. 508

V

Houbigant, Inc. v. ACB Mercantile, Inc. (In re Houbigant, Inc.),
185 B.R. 680 (S.D.N.Y. 1995)....................................................

7

Howell v. Adler, No. 16-14141, 2017 WL 1064974 (E.D. La. Mar. 21, 2017)

4

Howell Hydrocarbons, Inc. v. Adams, 897 F.2d 183 (5th Cir. 1990)

7,25

In re Majestic Energy Corp., 835 F.2d 87, 89 (5th Cir. 1988) ..

7

Kroner, Matter of, 953 F.2d 317 (7th Cir. 1992)

25

Lake Villas Homeowners Assoc., Inc. v LaMartina, 189 So.3d 1070 (Mem) (La. 2016)

21

Lake Villas No. 2 Homeowners Assoc., Inc. v LaMartina,
2018-0699 (La. App. lstCir. 9/17/18)..............................

5

ITTEduc. Servs., Inc. v. Acre, 533 F.3d 342, 347 (5th Cir. 2008)

9

Malley v. Briggs, 475 U.S. 335, 106 S.Ct. 1092, 89 L.Ed.2d 271 (1986).......

12,18

Matter of Querner, 1 F.3d 1199, 1202 (5th Cir. 1993).....................................

8

Merritt Hawkins &Assocs., L.L.C. v. Gresham, 861 F.3d 143 (5th Cir. 2017)

9

Moawadv. Childs, 673 F.2d 850 (5th Cir. 1982).............................................

:...23

Neitzke v. Williams, 490 U.S. 319, 327, 109 S.Ct. 1827, 104 L.Ed. 2d 338 (1989)

22

Norris v. Hearst Trust, 500 F.3d 454, 461 n9 (5th Cir. 2007)................................

25

Northern Pipeline Construction, Co. v. Marathon Pipeline, Co.,
458 U.S. 50, 102 S.Ct. 2858, 73 L.Ed.2d 598 (1982)............................................

7

Paige v. Smith, 99 Mass. 395

21

Parker v. Browning, 8 Paige (N.Y.), 388

21

Phoenician Mediterranean Villa v. Swope, 872 B.R. 138 (3d Cir. 2017)

12,18,20

Salomon v. Kaiser (In re Kaiser), 722 F.2d 1574, 1582 (2d Cir. 1983)...................

7

Scotland Guard Servs. v. Autoridad de Energia Electrica
(In re Scotland Guard Servs., Inc.), 179 B.R. 764 (Bankr. D.P.R. 1993)................

7

Semtek Int'l Inc. v. Lockheed Martin Corp., 531 U.S. 497, 149 L.Ed.2d 32 (2001)

8

vi

Snow Ingredients Inc. et al. v. SnoWizzard, Inc. et al, 2015-30393 (5th Cir. 2016)

25

Stern v. Marshall, 131 S.Ct. 2594, 180 L. Ed.2d 475, 564 U.S. 462 (2011)

10,16

Test Masters Educ. Servs. V. Singh, 428 F.3d 559, 570 (5th Cir. 2005)

15

Truong v. Bank ofAm., N.A., 717 F.3d 377 (5th Cir. 2013)

10

Union Planters Bank Nat'l Ass'n v. Salih, 369 F.3d 457, 462 (5th Cir.2004)

10

United States v. Samuels, 808 F. 2d 1298, 1301 (CA8 1987)

24

United States v. Sineneng-Smith (2020)

24

Wellness Int'l Network, Ltd. v. Sharif,
135 S.Ct. 1932, 191 L.Ed.2d 911, 83 USLW 4337 (2015)

7

Woodv. Strickland, 420 U.S. 308, 322, 95 S.Ct. 992 1001, 43 L.Ed.2d 214 (1975)

13

Yesh Music v. Lakewood Church, 727 F.3d 356 (5th Cir. 2013)

8

Statutes and Rules
11 U.S.C.§362

6,22

28 U.S.C. §157(b)(1)
28 U.S.C. § 157(c)(1)

7
8

18 U.S.C.§201
18U.S.C.§1512
18U.S.C.§1341
18U.S.C.§1621
18U.S.C.§1622

18,19
18,19
18,19
18,19
18,19

FRBP 7008

8

FRCP 8
FRCP 9

24

12

Other
Article I of the U.S. Constitution ..
Article III of the U.S. Constitution

7
7

1

Petition For Writ Of Certiorari
Petitioner John Howell respectfully petitions for a writ of certiorari to review a judgment of the
U.S. Court of Appeals for the 5th Circuit that defies U.S. Supreme Court precedent, the U.S.
Constitution, and principles so basic to our judicial system by:
(1) affirming the bankruptcy court's dismissal of Petitioner's case for "lack of jurisdiction"
while it simultaneously retained jurisdiction to dismiss his complaint with prejudice and
fashioned a "Barton injunction” prohibiting Petitioner from bringing his claims [including
pendant state claims) in a court of competent jurisdiction;
(2) conferring Article III powers of United States courts on a bankruptcy court;
(3) sanctioning a "Barton injunction" prohibiting a Louisiana court from reviewing its own
state-court interlocutory order and preventing Petitioner from bringing his "non-core” and
state-law claims in a court of competent jurisdiction;
(4) extending quas/-judicial immunity to defendants who are neither "government officials”
nor agents of "government officials" entitled to "derivative” immunity;
(5) extending “retroactive" quasi-judicial immunity to defendants who, after engaging in
tortious and criminal misconduct for a three-vear period, were subsequently [and
strategically) employed by their co-defendant/U.S. trustee as "court-appointed” counsel,
now, presumably entitled to "derivative” retroactive immunity for their prior misconduct;
(6) holding that qualified immunity shields defendants from liability for blatant violations of
clearly established law;
(7) demonstrating the court's outright refusal to proceed on the assumption that factual
allegations contained in Petitioner's complaint are true; and
(8) inferring that Petitioner is "vexatious” [less likely because he is and more likely because
he’s a college kid who had the audacity-to sue a U.S. trustee and a defendant who, despite
being a disbarred bankruptcy attorney himself, is the brother of prominent bankruptcy
attorney and president of the Louisiana State Bar Association).
This Court should grant review because what began as case for fraud has morphed into a "case
study” on just how far federal courts will depart from the accepted and usual course of judicial
proceedings, or sanction such departures, to shield a particular set of defendants [who the lower
court prefers not be sued or embarrassed) from liability.

2

Opinions Below
The opinion of the United States Court of Appeals for the Fifth Circuit is reprinted in Appendix
A at la. The decision of the United States District Court for the Eastern District of Louisiana is
reprinted in Appendix B at 4a. The order and injunction rendered by the United States
Bankruptcy Court for the Eastern District of Louisiana is reprinted as Appendix C at 5a.

Jurisdiction
The 5th Circuit Court of Appeals entered final judgment on April 1, 2020. Timely filed petitions
for panel rehearing and rehearing en banc were denied on June 9, 2020. In accordance with this
Court's March 19, 2020 order [providing the "deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the lower court
judgment, order denying discretionary review, or order denying a timely petition for rehearing”],
this petition is timely filed on or before Monday November 9, 2020. This Court has jurisdiction
under 28 U.S.C. §1254(1].

Constitutional And Statutory Provisions Involved
Article I of the U.S. Constitution
Article III of the U.S. Constitution
28 U.S.C. §157(b)(l)
28 U.S.C. §157(c](l]
11 U.S.C.§362(a]
18 U.S.C.§201
18U.S.C.§1512
18U.S.C.§1341
18U.S.C.§1621
18U.S.C.§1622
See Appendix F for complete text.

3

Statement Of The Case
In 2007, Petitioner John Howell ("John”) and his grandmother purchased, and were the
recorded owners of, a mortgage note. Their note was managed and administered by Respondent
Donald Grodsky ("Grodsky”). In 2013, Respondents devised a scheme to defraud John (then, a
minor child) and his unrepresented 75-year-old grandmother by fraudulently obtaining a statecourt interlocutory order awarding their mortgage note to Grodsky. Respondents intended to
liquidate Petitioner's mortgage note and split its proceeds.1 To that end, between 2013-2016,
Respondents traversed state and federal bankruptcy court engaging in a pattern of tortious and
criminal misconduct (characterized by the 5th Circuit as "bribery, witness tampering, fraud, and
extortion, among many other crimes, and defamation, breach offiduciary duty, and abuse of
process")2 causing your Petitioner's damages.
That said, the facts in this case are largely irrelevant to this Petition (z.e. this is not a "factbound" case) because allegations of the Respondents' constitutional violations, torts, and crimes
contained in Petitioner's complaint have never been adjudicated.3 In fact, Respondents have
never even filed a substantive answer to the allegations against them.

1 The Respondents' scheme was successful. In 2019, Respondents liquidated Petitioner's
mortgage note and split the entirety of its proceeds (approximately $120,000.00) as "fees
and commissions” allegedly related to the administration of Grodsky's Chapter 7 case.
2 A more detailed description of Respondents' unlawful activities can be found in the excerpt of
factual allegations contained in Petitioner's original complaint reprinted in Appendix D at 7a.
3 Except to the extent that the bankruptcy court (an Article I court of limited jurisdiction)
suggested Petitioner's "non-core” claims (over which it lacked jurisdiction) "lacked
merit” and were "not based in fact" before dismissing them with prejudice, on grounds
that it lacked jurisdiction (thereby, effectively, adjudicating those claims), years of procedural
wrangling have prevented John's claims from being considered or adjudicated in any court.

4

By 2016, the bankruptcy court had openly expressed its reluctance to entertain any claims of
misconduct against these particular Respondents. More specifically, the bankruptcy court
refused to consider any allegations against [trustee) David Adler ["Adler”); [his counsel) David
Messina ("Messina") and Fernand Laudumiey ("Laudumiey”) (referred to by that court as "Dave
and Ferdi”); and (Debtor) Grodsky (a disbarred bankruptcy attorney and brother of Barry
Grodsky, a prominent bankruptcy attorney and President of the Louisiana Bar Association).
So, in August 2016, John filed a "non-core” civil complaint against Respondents in U.S. District
Court.4 The district court dismissed his complaint without prejudice, holding that the Barton
doctrine precluded John from filing his claims without first receiving permission from the
bankruptcy court.
As a matter of judicial efficiency, instead of moving for leave to sue the Respondents (half of
whom were not "court-appointed” officials entitled to "Barton protections” and none of whom
were entitled to “Barton protections” for ultra vires misconduct, including constitutional
violations, torts, and crimes committed while defrauding John), John refiled his "non-core”
complaint as an adversary proceeding in the bankruptcy court and demanded a jury-trial.
Additionally, in state court, John filed a petition to annul the fraudulently obtained interlocutory
order awarding Petitioner's property to Grodsky.
Having refrained from expressly consenting to jurisdiction, John (erroneously) expected the
bankruptcy court to transfer his "non-core” case to a court of competent jurisdiction.
But, it didn't.

4 See Howell v. Adler, No. 16-14141, 2017 WL 1064974 (E.D. La. Mar. 21, 2017).

5

Instead, the bankruptcy court dismissed John's complaint for "lack of jurisdiction” while
retaining jurisdiction to (1) dismiss his claims with prejudice and (2) render a “Barton
injunction" prohibiting John from bringing his claims in a court of competent jurisdiction.5
In turn, this also meant the Louisiana court was now prohibited from reviewing its own statecourt interlocutory order and John's state-court petition for nullity was promptly dismissed.6
In a shocking affirmation of the bankruptcy court's dismissal, the 5th Circuit's ruling
demonstrates an outlandish departure from normal judicial standards. This blatant disregard for
U.S. Supreme Court precedent, the U.S. Constitution, and principles so basic to our judicial system
has both confounded first-year law students (following the case in district court] and left
seasoned attorneys shaking their heads in dismay, but, sadly, not in disbelief.
The 5th Circuit crafted an opinion that, on its face, appears to conform to clearly established law
and legal precedent. But, if one scratches the surface even slightly, it's readily apparent that the
lower court, among other suspect findings, sanctioned:
•

an Article I court's dismissal of your Petitioner's "non-core" claims for lack of jurisdiction
while it simultaneously exercised that same jurisdiction to dismiss those "non-core"
claims with prejudice (thereby adjudicating them];

•

an Article I court's “Barton injunction" prohibiting your Petitioner from raising "non-core"
and pendant state claims (over which the bankruptcy court has no jurisdiction] against its
“preferred" Defendants (even those who are not "court-appointed" officers over whom
the bankruptcy court retains any special authority] in any court of competent jurisdiction;

•

an Article I court's extension of qualified immunity to Defendants (like a condo
association and a disbarred attorney] who are clearly not "government officials" or agents
of "government officials" entitled to assert "derivative” immunity as a defense;

5 The bankruptcy court's order and injunction are reprinted in the Appendix at 5a.
6 See Lake Villas No. 2 Homeowners Assoc., Inc. v LaMartina, 2018-0699 (La. App. 1st Cir. 9/17/18).

6

•

an Article I court's finding that the defense of qualified immunity not only shields its
"favored” Defendants from liability for knowing and willful violations of clearly
established law but also shields these Defendants from liability for crimes committed
before they were "court-appointed" officers; and

•

an Article I court's refusal to accept the facts as alleged in your Petitioner's complaint and
proceed on the assumption that they are true [despite the fact that over fifty (50) exhibits
evidencing those claims - all in the form of written authentic documents, bank records,
and public records - were attached to that complaint).

This case has become a tangled mess as the courts engage in the absurd legal contortions
necessary to achieve their desired result: immunizing these particular Respondents from suit for
their knowing and willful violations of both state and federal law. The lower court’s decision is
not merely erroneous, it is outlandishly and egregiously so - making this a matter of sufficient
importance to merit review.
While facially innocuous, the lower court's decision is an affront to basic principles of our
system of adjudication. This Court should put a stop to this by exercising its supervisory powers
and restoring judicial integrity. It should grant this Writ and summarily reverse the 5th Circuit's
ruling, thereby ensuring that Petitioner is not denied due process and can simply pursue the jurytrial to which he is entitled.7

7 Note: Petitioner filed two suits: a “non-core” proceeding for damages sustained as a result of the
Respondents' constitutional violations, torts, and crimes and a “core-proceeding” for damages to
which Petitioner is entitled under 11 U.S.C. §362(k) for Respondents' knowing and willful violations
of 11 U.S.C. §362(a) (providing for an automatic stay in bankruptcy cases). For the purposes of
appeal, the 5th Circuit consolidated these two cases. This Petition addresses questions raised by the 5th
Circuit's ruling in the first “non-core” case. However, the contents of the Petition for Writ of
Certiorari filed by Petitioner, Elise LaMartina, addressing additional questions presented by the
5th Circuit's suspect findings in both the “non-core” case as well as the “core-proceeding” are
incorporated herein by reference.

7

Reasons For Granting The Writ
i.

The lower court conferred Article III powers of United States courts
on a court of limited jurisdiction created by Congress under
Article I of the U.S. Constitution.
Created by Congress under Article I of the U.S. Constitution, bankruptcy courts are courts of
limited jurisdiction. Thus, Article III powers of United States courts are not vested in bankruptcy
judges. A bankruptcy court is only permitted to adjudicate cases involving "public rights” ("core­
proceedings”) and may not render final judgments or orders in "private rights" ("non-core”)
cases. See Northern Pipeline Construction, Co. v. Marathon Pipeline, Co., 458 U.S. 50,102 S.Ct.
2858,73 L.Ed. 2d 598 (1982); Wellness Int'l Network, Ltd. v. Sharif, 135 S. Ct. 1932,191 L.Ed.2d
911, 83 USLW 4337 (2015); Howell Hydrocarbons, Inc. v. Adams, 897 F.2d 183 (5th Cir. 1990).
"Bankruptcy courts are courts of limited jurisdiction whose scope is statutorily defined.” In re
Majestic Energy Corp., 835 F.2d 87, 89 (5th Cir. 1988). Under 28 U.S.C. §157, bankruptcy judges
may only "hear and determine” cases under Title 11 and all "core-proceedings” arising, or arising
in a case, under Title 11. See 28 U.S.C. §157(b)(l).
A "non-core” proceeding has a "life of its own in either state or federal common law or statute
independent of the federal bankruptcy laws." Salomon v. Kaiser (In re Kaiser), 722 F.2d 1574,1582
(2d Cir. 1983); Scotland Guard Servs. v. Autoridad de Energia Electrica (In re Scotland Guard Servs.,
Inc.), 179 B.R. 764 (Bankr. D.P.R. 1993) (non-core proceedings, where the action "would survive
outside of bankruptcy," include causes of action based on non-bankruptcy law); Houbigant, Inc. v.
ACB Mercantile, Inc. (In re Houbigant, Inc.), 185 B.R. 680 (S.D.N.Y. 1995) (proceeding is "core” if it
invokes a substantive right provided by the Bankruptcy Code or by nature could arise only in the
context of a bankruptcy case).

8

In a "non-core" adversary proceeding, the complaint must state whether a party consents to
entry of final order by bankruptcy judge. Absent a party's express consent, a bankruptcy court
may not determine (or, conversely, prohibit courts of competent jurisdiction from determining] a
plaintiff's "non-core” claims. See 28 U.S.C. §157(c](l].
"In an adversary proceeding before a bankruptcy court, the complaint... shall contain a
statement that the pleader... consent(s) to entry of final orders or judgment by the
bankruptcy court... Failure to include the statement of consent does not constitute
consent. Only express consent in the pleadings... is effective to authorize entry of a final
order or judgment by the bankruptcy judge in a non-core proceeding." See FRBP 7008.
"Notably, a dismissal with prejudice is an adjudication on the merits operating as a final
judgment.” Yesh Music v. Lakewood Church, 727 F.3d 356 (5th Cir. 2013]. "'[W]ith prejudice' is an
acceptable form of shorthand for 'an adjudication upon the merits.' See also Goddard, 14 Cal. 2d,
at 54,92 P.2d, at 808 (stating that a dismissal "with prejudice" evinces "[t]he intention of the
court to make [the dismissal] on the merits"].” Semtek Int'I Inc. v. Lockheed Martin Corp., 531 U.S.
497,149 L.Ed.2d 32 (2001]. “Where a federal court lacks jurisdiction, its decisions, opinions, and
orders are void.” Matter of Querner, 7 F.3d 1199,1202 (5th Cir. 1993).
The court of first instance lacked jurisdiction to (1) adjudicate John's “non-core” claims;
(2) enjoin John from bringing "non-core” claims in a court of competent jurisdiction; and
(3) prohibit a state court from reviewing its own interlocutory order.
John's suit for damages caused by the Respondents' constitutional violations, torts, and crimes
is a "non-core" matter involving "private rights.” It invokes no substantive rights provided in Title
11 and cannot arise only in the context of a bankruptcy case. John's "non-core" proceeding has a
"life of its own in either state or federal common law or statute independent of the federal
bankruptcy laws” and "would survive outside of bankruptcy." Express consent to entry of final
orders or judgment by the bankruptcy court in this case (as required by statute and the federal
rules) was specifically withheld and/or excluded from John's complaint.

9
The bankruptcy court acknowledged its lack of jurisdiction to adjudicate Petitioner's "noncore” claims. However, citing "lack of jurisdiction" as a basis for dismissal, the bankruptcy court
dismissed John's case with prejudice [thereby adjudicating claims over which it, admittedly, had
no jurisdiction).
Further, while dismissing Petitioner's "non-core” claims for lack of jurisdiction, the bankruptcy
court simultaneously exercised that same jurisdiction to fashion its "Barton injunction."8 This
permanent injunction prohibits Petitioner's "non-core” claims from being heard in a court of
competent jurisdiction and enjoins Louisiana’s court from reviewing its own state-court
interlocutory orders or entering any judgment related to the validity of that orders.

8 Generally, to obtain permanent injunctive relief, a party "must demonstrate: "(1) that it has
suffered an irreparable injury; [2) that remedies available at law are inadequate to compensate
for that injury; [3) that, considering the balance of hardships between plaintiff and defendant, a
remedy in equity is warranted; and (4) that the public interest would not be disserved by a
permanent injunction." ITTEduc. Servs., Inc. v. Acre, 533 F.3d 342, 347 (5th Cir. 2008) (quoting
eBay, Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391,126 S.Ct. 1837,164 L.Ed.2d 641 (2006)).”
' Merritt Hawkins & Assocs., L.L.C. v. Gresham, 861 F.3d 143 (5th Cir. 2017). Because Respondents
could not show any of the requisite elements necessary for a permanent injunction to issue, the
bankruptcy court waived those requisites and created its "Barton injunction" allegedly
pursuant to its authority under Barton v. Barbour, 104 U.S. 126, 26 L.Ed. 672 (1881) (requiring
leave from the bankruptcy court before initiating suit against its "court-appointed" officers).
However, in bankruptcy cases, injunctive relief is also only appropriate upon a showing that the
enjoined action would "impede, impair, or irreparably interfere with the administration of the
estate." Baptist Medical Center of New York v Singh, 80 BR. 637, 644 (Bankr. EDNY 1987). As the
only secured creditor in Grodsky’s estate, John had no interest in impeding, impairing, or
interfering (much less irreparably) with this estate's administration. On the contrary, John had
begged the Trustee to satisfy his claim for years! Pursuant to the Promissory Note and Security
Agreement attached to John’s proof-of-claim, Grodsky’s estate had no, zero, equity in John’s
mortgage note. The Trustee should have abandoned it for lack of sufficient equity to justify its
administration. He didn’t - because Grodsky’s bankruptcy case was not reopened to maximize
distributions to creditors. It was merely a pretense for 6 unscrupulous attorneys to steal John's
property and split its proceeds (which they did). This Chapter 7 case closed and NO creditor,
John included, received anything. (For more on this, please see John's Petition for Writ in related
5th Circuit case #20-30417.) Further, this "Barton injunction" shields ALL named Defendants
from liability, including Respondents who are not, and cannot be, "court-appointed" officers.

10
As in Stern, "the bankruptcy court in this case exercised the judicial power of the United States
by entering final judgment on a common law tort claim, even though the judges of such courts
enjoy neither tenure during good behavior nor salary protection." Stern v. Marshall, 131 S.Ct.
2594,180 L. Ed.2d 475, 564 US 462 (2011).
However, in this case, the bankruptcy court went further. It not only entered final judgment on
claims over which it had no jurisdiction, it prohibited Petitioner from bringing those claims (or
any issue related to the "nucleus of operative facts" in this case that may embarrass or expose its
preferred Defendants/Respondents to liability) in a court of competent jurisdiction.
In fact, the bankruptcy court's overly-broad ‘‘Barton injunction" prohibits ALL would-be
plaintiffs (even those who are not parties to this action) from bringing suit against these
Respondents for any claim related to the facts outlined in John's complaint. That is, this Article 1
court of limited jurisdiction (with no jurisdiction in the instant case), effectively, enjoined
competent courts (whose jurisdiction is without statutory limits) from hearing Petitioner's, and
any other person's, claims against these particular Respondents.
Further, ""[r]educed to its essence, the Rooker-Feldman doctrine holds that inferior federal
courts do not have the power to modify or reverse state court judgments" except when
authorized by Congress. Union Planters Bank Nat'l Ass'n v. Salih, 369 F.3d 457, 462 (5th Cir.2004)"
Truong v. Bank ofAm., N.A., 717 F.3d 377 (5th Cir. 2013). Thus, while even Article III courts lack
jurisdiction to review or reverse state-court judgments, this Article I court of limited jurisdiction
not only prohibited the state-court from reviewing or reversing its own orders but prohibited it
from rendering any judgment related to its own state-court order.

11
In upholding the bankruptcy court’s order dismissing Petitioner's "non-core" complaint with
prejudice and sanctioning its "Barton injunction,” the 5th Circuit conferred Article III powers of
United States courts, and even jurisdiction that exceeds that of an Article III court, on an Article I
court of limited jurisdiction. The 5th Circuit reasoned that the bankruptcy court's jurisdiction
over "non-core," "private rights," claims is not governed by statute, federal rules, or even the U.S.
Constitution, but by what it perceived as "extensive litigation" in this matter. (This, incidentally, is
particularly odd given that Respondents have never presented a substantive response or answer
to any of the allegations in John's complaint and this case never reached the discovery phase].
This Writ should be granted to examine whether the subjective nature or "extensivity” of
litigation forms a basis for an Article I court of limited jurisdiction to exercise Article III judicial
powers of United States courts (and even exercise jurisdiction that exceeds that of Article III
courts]. Alternatively, even if this Court was to determine that an Article I court's jurisdiction is
not governed by statute, federal rules, or the U.S. Constitution but by the "extensivity” of litigation
in a matter, this Writ should be granted to examine whether the mere filing of a lawsuit
constitutes the requisite "extensivity" necessary for a bankruptcy court to exercise jurisdiction to
dismiss a plaintiff's "non-core” claims with prejudice and execute a"Barton injunction” denying a
plaintiff his constitutional right to due process to bring "non-core" claims in a court of competent
jurisdiction and prohibiting a state court from reviewing, reversing, or rendering any judgment
related to its own interlocutory orders.
If not, the bankruptcy court's order dismissing Petitioner's case is void, its "Barton injunction"
is void, the 5th Circuit's ruling must be reversed, and Petitioner's case must be remanded to
district court so that he may pursue the jury-trial to which he is lawfully entitled.

12
II.
The lower court granted quasi-judicial immunity to Respondents who are not entitled to
raise qualified immunity as an affirmative defense to liability.
The lower court ignored John's contention that qualified or "good faith" immunity is an
affirmative defense, not properly raised in a defendant’s motion to dismiss, that must be pleaded
by a defendant official. Gomez v. Toledo, 446 U.S. 635,100 S.Ct. 1920, 64 L.Ed.2d 572 (1980).
Further, the 5th Circuit ignored the fact that Petitioner’s complaint includes allegations negating
the substance of a qualified immunity defense pled under FRCP 8(c). Respondents have yet to
deny those allegations and they have the burden of proving that they are entitled to assert
qualified immunity as a defense to liability for the damages caused by their misconduct.
Alternatively, even if quasi-judicial immunity was appropriately considered in their motion to
dismiss, no Respondent herein can show that he is entitled to assert this affirmative defense.
In Harlow v. Fitzgerald, 457TJ.S. 800, 815, 73 L.Ed.2d 396,102 S.Ct. 2727 (1982), this Court
held that "government officials performing discretionary functions generally are shielded from
liability for civil damages insofar as their conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person would have known.” The Court found a
Chapter 7 trustee to be a "government official” who could enjoy these protections as long as he
did not act contrary to clearly established law. By virtue of being "court-appointed” employees
of a Chapter 7 trustee, a trustee's counsel is typically entitled to "derivative” immunity. When
properly applied, qualified immunity protects "all but the plainly incompetent or those who
knowingly violate the law.” Malley v. Briggs, 475 U.S. 335,106 S.Ct. 1092, 89 L.Ed.2d 271 (1986);
Phoenician Mediterranean Villa v. Swope (In reJ&SProperties), 872 B.R. 138,142 (3rd Cir. 2017).

13
Respondents who are not "government officials,”
nor "court-appointed" agents or employees of "government officials,"
may not assert quasi-judicial immunity as an affirmative defense to liability.
To assert quas/-judicial immunity as an affirmative defense to liability, one must actually BE a
"government official” or "court-appointed” counsel, agent, or representative employed by a
"government official.” See Harlow, at 815.
Respondent Grodsky is a disbarred bankruptcy attorney and debtor in this bankruptcy case.
At no time relevant to these proceedings was Grodsky "court-appointed" counsel, or in any way
employed by, his Co-Defendant/Respondent Trustee Adler.9
Respondent Lake Villas No.2 Homeowners Association ("LV2"] is a condo association that
offered Grodsky $10,000.00 to defraud John by committing perjury in both state and federal
courts. This condo association was never employed by, or "court-appointed" counsel for, it’s CoDefendant/Trustee Adler.
Obviously, LV2 and Grodsky are not "government officials." Thus, they are not entitled to assert
qualified, or any quasi-judicial immunity, as a defense to liability in this case. Further, it's a farce
to suggest that this disbarred attorney and condo association, who are not, and cannot be,
"court-appointed" counsel employed by their Co-Defendant/Trustee, are entitled to assert
"derivative" immunity as an affirmative defense to liability (nor are they entitled to the
bankruptcy court’s "Barton protections"].

9 Without any discovery, Petitioner cannot know the exact nature or extent of Grodsky’s
relationship with his Co-Defendants, Adler; Messina, Laudumiey, and the law firm of Gordon,
Arata, Montgomery, Barnett, McCollam, Duplantis, & Eagan, LLC; or the bankruptcy court prior to
events forming the basis for this lawsuit.

14
Remarkably, the 5th Circuit found that qualified immunity shielded both Grodsky and LV2 from
liability because, while engaging in violations of clearly established law, the court suggested they
were, somehow, "acting in the course and scope" of their employment. Because Grodsky and LV2
aren't "government officials" and were never "court-appointed" counsel or agents employed by
their Co-Defendant/Trustee, the 5th Circuit's finding that these Respondents "acted within the
scope of [the trustee's] duties during the events described in the complaint,” is clearly erroneous.
After an exhaustive search, Petitioner can find no authority suggesting that Grodsky and LV2
are entitled to any "piggy-back" quas/-judicial immunity from suit by virtue of the fact that their
Co-Defendants subsequently opened a bankruptcy case or received judicial-appointments.
This Writ should be granted to examine whether this disbarred attorney and a condo
association are entitled to assert qualified immunity as an affirmative defense to liability for
violations of clearly established law because [a] they are "government officials," (b] they are
“court-appointed" counsel entitled to "derivative” immunity, or [c] their partners-in-crime were
"government officials" or their "court-appointed" counsel. If not, the 5th Circuit's ruling must be
reversed, and Petitioner's case against these Defendants/Respondents must be remanded to
district court so that he may pursue the jury-trial to which he is lawfully entitled.
"Derivative" qualified immunity does not shield Defendants from liability (retroactively)
for torts and crimes committed during a three (3) year period prior to their (subsequent
and strategic) employment by their Co-Defendant as his "court-appointed" counsel.
Again, to assert quasz-judicial immunity as an affirmative defense, one must actually BE a
trustee or his "court-appointed" counsel. See Harlow, at 815. The Respondents' scheme to
defraud John is easily traced back to February 2013. As part of the scheme, Grodsky’s Chapter 7
case was re-opened on September 5, 2013. At no time prior to October 2013 was any Respondent
employed as counsel, "court-appointed" or otherwise, for their Co-Defendant/Trustee Adler.

15
As outlined in Petitioner’s complaint, it is clear that the Respondents’ illegal enterprise was
initially hatched by collection attorneys, Glen Galbraith ["Galbraith") and Lesli Bolner ["Bolner"),
in, at latest, February 2013.10 Between February 2013 and August 2013, these Respondents
expanded their illegal enterprise to include Defendants, LV2, Grodsky, David Messina ["Messina”),
Fernand Laudumiey ["Laudumiey"), and Adler.11 By August 27, 2013, court documents evidence
that these Respondents suborned Grodsky's first perjured testimony. Approximately a week later,
they moved to re-open Grodsky's bankruptcy case.
That is, the Respondents' fraudulent scheme and pattern of misconduct began at least eight [8)
months [in February 2013) before they moved to re-open Grodsky's Chapter 7 case (in
September 2013).
Adler wasn't appointed trustee of Grodsky's estate until September 10, 2013, eight (8) months
after the Respondents' criminal enterprise began. Laudumiey, Messina, and Gordon Arata,
weren't Adler's court-appointed counsel until October 9, 2013. nine (9) months after the
Respondents' scheme began. Galbraith, Bolner, and Seale & Ross, PLC weren't Adler's courtappointed counsel until March 23, 2016, more than three (3) years after the Respondents
entered into their scheme to defraud your Petitioner.

10 Without any discovery, Petitioner cannot determine precisely when the Respondents entered
into their illegal enterprise to defraud John and his grandmother.
11 Again, with no discovery Petitioner cannot know the exact date, but state-court documents
suggest their participation in this scheme began, at latest, in June 2013.

16
After an exhaustive search, Petitioner finds no authority entitling Respondents to "retroactive"
immunity for intentional torts and crimes committed, in their individual capacities, eight (8)
months to more than three f31 years before there was any estate to administer and before their
subsequent appointment as judicial officers. On the contrary, this Court found that trustees and
their attorneys are not entitled to immunity for intentional torts committed before the institution
of a bankruptcy case. See Stern v. Marshall, 131 S.Ct. 2594,180 L.Ed. 2d 475, 564 U.S. 462 (2011).
Therefore, these Respondents cannot claim any immunity, absolute or qualified, retroactive or
otherwise, for illegal activities in which they engaged before there was any bankruptcy estate to
administer, before there were any court orders, and/or before they were court-appointed officers.
And, of course, Grodsky and LV2 are not entitled to claim any immunity at all, much less "piggyback"/"retroactive" immunity based on their criminal association, or any relationship, with the
trustee and/or his court-appointed counsel.
The 5th Circuit’s holding sets a dangerous precedent encouraging all unscrupulous attorneys to
subsequently secure judicial appointments after committing torts and crimes. Further, it
encourages every non-attorney ne're-do-well to claim he is an employee of one of these
unscrupulous attorneys or trustees so that he may assert qualified immunity to escape liability.
This Writ should be granted to examine whether qualified immunity can be applied
retroactively to shield Chapter 7 trustees and their “court-appointed" counsel from liability for
violations of clearly established law during a 3-year period prior to their judicial appointments.
If not, the 5th Circuit's ruling must be reversed, and Petitioner's case against Respondents must be
remanded to district court so that he may pursue the jury-trial to which he is lawfully entitled.

17
Qualified immunity does not shield defendants from liability for
conduct violating clearly established law.
Alternatively, even if this Court finds Respondents are entitled to "retroactive,” and/or "piggy­
back, retroactive" immunity based on their, or their Co-Defendants’, subsequent appointments,
qualified immunity does not shield Respondents from liability for tortious and criminal acts.
Again, in Harlow v. Fitzgerald, this Court stated that "government officials (including trustees
and, by extension, his court-appointed counsel) performing discretionary functions generally are
shielded from liability for civil damages insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would have
known." Immunity is preserved only where trustees and their counsel act within their statutory
duties and don't violate clearly established laws. Id.
"Decisions of this Court have established that the "good faith" defense has both an
"objective" and a "subjective" aspect. The objective element involves a presumptive
knowledge of and respect for "basic, unquestioned constitutional rights." Wood v.
Strickland, 420 U.S. 308, 322, 95 S.Ct. 992 1001, 43 L.Ed.2d 214 (1975). The subjective
component refers to "permissible intentions..." Referring both to objective and subjective
elements, we have held that qualified immunity would be defeated if an official "knew or
reasonably should have known that the action he took within his sphere of official
responsibility would violate the constitutional rights of the [plaintiff], or if he took the
action with the malicious intention to cause a deprivation of constitutional rights or other
injury..." Ibid. Harlow v. Fitzgerald, 457 U.S. 800, 73 L.Ed.2d 396,102 S.Ct. 2727 (1982).
Citing In Re: Ondova Ltd. Co., 941 F.3d 990, 993 (5th Cir. 2019) (in which the "trustee was
entitled... to qualified immunity for... acts within the scope of his trustee duties"), the 5th Circuit
suggests Respondents "acted within the scope of their duties" and are "immune from liability."
However, Ondova continues, “ultra vires actions - actions that fall outside the scope of their duties
as trustees - are not entitled to immunity." Id.

18
The 5th Circuit acknowledges that Petitioner’s complaint alleges the Respondents engaged in
illegal activities. The criminal and tortious misconduct in which they engaged is summarized by
the panel as, "bribery, witness tampering, fraud, and extortion, among many other
crimes, and defamation, breach offiduciary duty, and abuse of process."
"Clearly established law" of which a reasonable person knows that defeats, both objectively and
subjectively, a "good faith" defense, includes:
•

bribery. See 18 U.S.C. §201(b)(3);

•

witness tampering. See 18 U.S.C. §1512(b)(d);

•

frauds and swindles. See 18 U.S.C. §1341;

•

perjury. See 18 U.S.C. §1621;

•

suborning perjury. See 18 U.S.C. §1622; and

"...many other crimes, and defamation, breach of fiduciary duty, and abuse of process" as alleged
in Petitioner's complaint and identified by the 5th Circuit.
Qualified immunity "protects all but the plainly incompetent or those who knowingly violate
the law." Malley v. Briggs, 475 U.S. 335,106 S.Ct. 1092, 89 L.Ed.2d 271 (1986); Phoenician
Mediterranean Villa v. Swope (In re J&S Properties), 872 B.R. 138,142 (3rd Cir. 2017).
So, with regard to the Respondents' tortious and criminal misconduct after they re-opened
Grodsky's bankruptcy case (i.e. allegations after September 5, 2013):
First, as established, Grodsky and LV2, were never court-appointed officers entitled to any
immunity no matter when Grodsky's bankruptcy case was re-opened.
Second, Galbraith, Bolner, and Seale & Ross, were not court-appointed counsel until 2016.
Between February 2013-March 2016. they weren't acting "within the scope of [the] trustee's
duties" simply because, they were not Adler's agents, employees, or court-appointed counsel.

19
Thus, Galbraith, Bolner, and Seale & Ross, aren't entitled to any immunity for torts and crimes
they committed during that three-year period (i.e. actions taken prior to March 23, 2016]
regardless of when Grodsky's bankruptcy case was re-opened. Of course, the bulk of your
Petitioners' claims occurred during this period.
Third, Laudumiey, Messina, and Gordon Arata, weren't their Co-Defendant's "court-appointed"
counsel until October 9, 2013. These Respondents are not entitled to any immunity for torts and
crimes committed in the nine (9] month period before they reopened Grodsky's bankruptcy case.
Finally, as for "bribery, witness tampering, fraud, and extortion, among many other crimes..."
and tortious actions committed by:
•

Seale & Ross, Galbraith, and Bolner after March 23, 2016;

•

Adler, after September 10, 2013;
Laudumiey, Messina, and Gordon Arata, after October 9, 2013; and

•

Chaffe McCall, after February 21, 2017,

these are ultra vires acts outside the course and scope of a trustee's employment, before, during,
and after the administration of a bankruptcy estate.
Unless one is suggesting that judicial officers regularly engage in unlawful and criminal
misconduct, constitutional violations, torts and crimes are not activities customarily associated
with the administration of a bankruptcy estate. Qualified immunity does not extend to such ultra
vires acts and/or violations of clearly established law of which reasonable people are aware.
Reasonable people, particularly a group of six [6] barred and disbarred attorneys, know that
bribery is a crime (See 18 U.S.C. §201(b](3]]; witness tampering isn't legal (See 18 U.S.C.
§1512(b)(d]]; frauds and swindles violate established law (See 18 U.S.C. §1341); perjury isn't
lawful (See 18 U.S.C. §1621); and suborning perjury is illegal (See 18 U.S.C. §1621); etc...

20

Reasonable people know that the Respondents' actions violate established law and are ultra
vires acts for which they are not entitled to qualified immunity.
Contrast this case with Phoenician Mediterranean Villa v. Swope, 872 B.R. 138 (3d Cir. 2017) in
which the court held the trustee’s conduct was immune from suit because she exercised
reasonable care under the circumstances and didn't clearly violate established laws. The Swope
trustee is exactly the judicial-appointee qualified immunity is intended to protect. The
Respondents herein are not. Unlike this case, Trustee Swope didn't knowingly engage in crimes.
Upholding precedent, the 3rd Circuit explained, when properly applied, qualified immunity
"protects all but the plainly incompetent or those who knowingly violate the law.” Swope, at 142.
The Respondents aren't incompetent. They're unethical attorneys who knowingly violated the
law while abusing their status as officers of the court and defrauding the courts themselves (both
state and federal). Your Petitioner’s complaint establishes that the Respondents violated
statutory and constitutional rights, which were "clearly established" at the time of their conduct.
Violations of "clearly established" laws aren't subject to the defense of qualified immunity.
Qualified immunity shielding Adler and/or his Co-Defendants from liability extends only to
acts within the scope of his trustee duties. Respondents aren't being sued for those acts. As
alleged in the complaint, Adler and his court-appointed counsel committed ultra vires acts that
fall outside the scope of a trustee's duties which form the basis for this lawsuit. Thus, Adler, his
subsequently-appointed attorneys, and his non-appointed cohorts, are not entitled to immunity
limiting their liability for damages caused by their torts and crimes.
To the extent Respondents' crimes were committed while administering Grodsky's estate, it's
long-established that plaintiffs may bring suit against trustees and attorneys for ultra vires acts.

21
"But if, by mistake or wrongfully, the receiver takes possession of property belonging to
another, such person may bring suit therefor against him personally as a matter of right;
for in such case the receiver would be acting ultra vires. Parker v. Browning, 8 Paige (N.Y.),
388; Paige v. Smith, 99 Mass. 395; Hills v. Parker, 111 id. 508.” Barton v. Barbour, 104 U.S.
126, 26 L.Ed. 672 (1881).
Interestingly, while it's not a significant part of Petitioner’s claims, the record reflects that
Trustee, quite literally, wrongfully took possession of the property of another. (The turnover
order was rendered in 2015, a year before, as the 5th Circuit acknowledged, the order awarding
the note to Grodsky in 2016. (Lake Villas, Inc. v LaMartina, 189 So.3d 1070(Mem.) (La. 2016).)
Nonetheless, the 5th Circuit summarized John’s allegations against the Respondents as,
"bribery, witness tampering, fraud, and extortion, among many other crimes, and
defamation, breach offiduciary duty, and abuse of process." Upholding the dismissal of John's
suit for damages caused by this misconduct, the 5th Circuit reasoned that these are not ultra vires
acts and Respondents are "immune from liability because they acted within the scope of their
duties...” while committing these crimes.
This Writ should be granted to examine whether "bribery, witness tampering, fraud, and
extortion, among many other crimes, and defamation, breach offiduciary duty, and abuse of
process" constitute ultra vires violations of clearly established law or whether, and under what
circumstances, these acts fall within the "scope of a trustee's duties." Further this Court should
examine whether Chapter 7 trustees, their "court-appointed" counsel, and their Co-Defendants,
who are neither "government officials" nor "court-appointed” agents or employees of a trustee
entitled to "derivative immunity,” are entitled to quasi-judicial immunity from civil liability for
such acts during a 9-month to 3-year period prior to their judicial appointments. If not, the 5th
Circuit's ruling must be reversed, and Petitioner’s case against these Defendants must be
remanded to district court so that he may pursue the jury-trial to which he is lawfully entitled.

22

III.
The lower court refused to proceed on the assumption that
the facts alleged in Petitioner's complaint were true.
This Court has repeatedly found that lower courts must proceed on the assumption that the
allegations contained in a complaint are true. In Ashcroft v. Iqbal, this Court explained, yet again,
"We made it clear... that a court must take the allegations as true, no matter how skeptical
the court may be. See Twombly, 550 U.S. 544, at 555,127 S.Ct. 1955 (a court must proceed
"on the assumption that all the allegations in the complaint are true (even if doubtful in
fact]”); id., at 556,127 S.Ct. 1955 ("[A] well-pleaded complaint may proceed even if it
strikes a savvy judge that actual proof of the facts alleged is improbable"); see also Neitzke
v. Williams, 490 U.S. 319, 327,109 S.Ct. 1827,104 L.Ed. 2d 338 (1989) ("Rule 12(b)(6)
does not countenance... dismissals based on a judge's disbelief of a complaint's factual
allegations”). The sole exception to this rule lies with allegations that are sufficiently
fantastic to defy reality as we know it: claims about little green men, or the plaintiff's
recent trip to Pluto, or experiences in time travel." Ashcroft v. Iqbal, 129 S.Ct. 1937,173
L.Ed 2d 868, 556 U.S. 662, 77 USLW 4387 (2009).
Petitioner's case does not fall within the sole exception to this rule. His complaints contain no
"claims about little green men," his "recent trips to Pluto," or "experiences in time travel."
John's "non-core" complaint alleges, with great specificity and in great detail, that in February
2013, Respondents embarked on a scheme to defraud him. With more than fifty (50) exhibits
(including written authentic documents, bank records, and public records) evidencing his claims,
John alleges that Respondents traversed state and federal bankruptcy courts making a mockery of
our judicial system while breaking state and federal laws and abusing their (or their CoDefendants') positions as officers of the court (whether "court-appointed" or not).
His second, "core," complaint contains allegations that to defraud him, not only as the true
owner of property but as a secured creditor in Grodsky's bankruptcy estate, the Respondents
acted in knowing and willful violation of 11 U.S.C. §362(a). Thus, he is entitled to damages under
11 U.S.C. §362(k). Allegations in John's "core" complaint are all evidenced in the public record.

23

Nothing is "far-fetched” about allegations that 6 unscrupulous lawyers (2 collection attorneys,
2 bankruptcy attorneys, a disbarred bankruptcy attorney, and a trustee) engaged in a pattern of
unlawful misconduct to defraud John. There is nothing novel about lawyers scheming to steal
property. John's claims don’t "defy reality as we know it.” Given the girth of (pre-discovery)
evidence, including court, bank, and public records, (all attached to John’s original complaint) it's
certainly plausible that Respondents set out to, and did, defraud Petitioner. Nonetheless, the 5th
Circuit dismissed John's complaint holding that his "allegations are not based in fact.”
This Writ should be granted to examine whether the lower court may ignore precedent and
curtail John's constitutional right to due process by refusing to proceed on the assumption that
his allegations against its “preferred" Defendants are true - despite the fact that he made no
claims that defy reality. If not, the 5th Circuit's ruling must be reversed and this case must be
remanded to district court so that John may pursue the jury-trial to which he is entitled.
IV.
Abandoning the principle of party presentation, the lower court reduced Petitioner's
complaint to a single, moot, claim which it found objectionable, and dismissed his suit
without affording Petitioner an opportunity to amend.
"The Federal Rules reject the approach that pleading is a game of skill in which one misstep...
may be decisive to the outcome and accept the principle that the purpose of pleading is to
facilitate a proper decision on the merits.” Conley v. Gibson, 355 U.S. 41,48, 78 S.Ct. 99,103,
2L.Ed.2d 80. Refusal to afford plaintiffs an opportunity to amend their complaint “is merely
abuse of that discretion and inconsistent with the spirit of the Federal Rules." Foman v. Davis, 371
U.S. 178, 83 S.Ct. 227, 9L.Ed. 2d 222 (1962). "Generally, a... court errs in dismissing a pro se
complaint... without giving plaintiff an opportunity to amend." Bazrowx v. Scott, 136 F.3d 1053 (5th
Cir. 1998) (quoting Moawad v. Childs, 673 F.2d 850 (5th Cir. 1982)).

24

Further, this Court has consistently found,
"In our adversarial system of adjudication, we follow the principle of party presentation.
As this Court stated in Greenlaw v. United States, 554 U. S. 237 (2008], "in both civil and
criminal cases, in the first instance and on appeal..., we rely on the parties to frame the
issues for decision and assign to courts the role of neutral arbiter of matters the parties
present." Id., at 243. In criminal cases, departures from the party presentation principle
have usually occurred "to protect a pro se litigant's rights." Id., at 244; see, e.g., Castro v.
United States, 540 U. S. 375, 381-383 (2003] (affirming courts' authority to recast pro se
litigants' motions to "avoid an unnecessary dismissal" or "inappropriately stringent
application of formal labeling requirements, or to create a better correspondence between
the substance of a pro se motion's claim and its underlying legal basis"]. But as a general
rule, our system "is designed around the premise that [parties represented by competent
counsel] know what is best for them, and are responsible for advancing the facts and
argument entitling them to relief." Id., at 386... In short: "[C]ourts are essentially passive
instruments of government." United States v. Samuels, 808 F. 2d 1298,1301 (CA8 1987].
They "do not, or should not, sally forth each day looking for wrongs to right. [They] wait
for cases to come to [them], and when [cases arise, courts] normally decide only questions
presented by the parties." Ibid. United States v. Sineneng-Smith (2020].
Pursuant to FRCP 9(b] (providing “a party must state with particularity the circumstances
constituting fraud or mistake..."], John stated, with great specificity and in great detail, the
circumstances constituting his case against Respondents for fraud. The "laundry list" of criminal
misconduct causing his damages is summarized by the 5th Circuit as, “bribery, witness
tampering, fraud, and extortion, among many other crimes, and defamation, breach of
fiduciary duty, and abuse of process." In addition to claims for damages resulting from
Respondents' repeated violations of federal laws, John's complaint contains multiple pendant
state-law claims, including those under Louisiana's Unfair Trade Practices Act.
Effectively making sua sponte alterations to Petitioner’s complaint, the lower courts abandoned
the principle of party presentation and discounted or eliminated all, but one, of John’s claims. Not
in an effort "to protect a pro se litigant's rights" but, rather, laboring to justify or rationalize the
unnecessary and erroneous dismissal of John’s suit, the lower court suggests, "as relief,
[Petitioners] sought "the return of [the] promissory note.

MU

25

Intentionally reducing John's complaint to a single claim it found objectionable, the 5th Circuit
devotes a significant portion of its opinion to mischaracterizing Petitioner's suit as an "attempt to
undo the turnover order in these separate proceedings [that] is barred by... res judicata."
Now, of course, "a res judicata contention cannot be brought in a motion to dismiss; it must be
pleaded as an affirmative defense." See Test Masters Educ. Servs. V. Singh, 428 F.3d 559, 570 (5th
Cir. 2005]; Snow Ingredients Inc. et al. v. SnoWizzard, Inc. et al, 2015-30393 (5th Cir. 2016] ("A res
judicata argument (claim preclusion] is an affirmative defense that should not be the basis for a
12(b](6) dismissal."]; Norris v. Hearst Trust, 500 F.3d 454, 461 n9 (5th Cir. 2007]: However, even if
the 5th Circuit properly discarded its own precedent, "a judgment in a core proceeding is without
res judicata effect on a subsequent, non-core proceeding in the bankruptcy court and again in the
district court." See Kroner, Matter of, 953 F.2d 317 (7th Cir. 1992]; Barnett v. Stern, 909 F.2d 973
(7th Cir. 1978]; Howell Hydrocarbons, Inc. v. Adams, 897 F.2d 183 (5th Cir. 1990].
Nonetheless, any suggestion that Petitioner is attempting to overturn a turnover order (or even
the state-court order) is a red herring. John’s suit is for damages caused by torts and crimes
committed by the Respondents while fraudulently obtaining those orders. Whether the turnover
order is a "final order," whether it’s "not subject to collateral attack," and res judicata are all red
herrings created by the Respondents to send the courts on wild goose chases. Such red herrings
are part and parcel of the whirlwind of convolution Respondents generate while attempting to
mask their unlawful misconduct and are waste of this Court's time. Petitioner's case is not about
overturning state-court or bankruptcy court orders.12

12 However, whether the turnover order or the state-court order were subject to attack will
forever remain in question because both were obtained while the Respondents perpetrated
multiple frauds upon the courts.

26
As the 5th Circuit found, no appeal was taken from the turnover order.13 Oddly, after
acknowledging that John didn't seek to "undo the turnover order” by appealing it, the lower court
suggests he is "attempting] to undo [it] in these separate proceedings...” Again abandoning the
principle of party presentation, the 5th Circuit added relief not sought by your Petitioner. John is
not seeking to "undo the turnover order..." For that matter, he is not seeking to overturn the statecourt order. Whether attempts "undo the turnover order" are "barred by the principle of res
judicata is inconsequential because Petitioner is seeking no such relief.
Overturning either order is moot. Any claim for the "return of the promissory note” is moot.
Using the fraudulently obtained orders, Respondents liquidated John's note and, as expected, to
the detriment of all estate claimants, John included, distributed all of its proceeds to
themselves - as commissions, legal fees, etc...
John's suit is not merely for "the return of [the] promissory note." Petitioner’s case is a "non­
core” proceeding alleging damages caused by the constitutional violations, torts, and crimes
committed by the Respondents while fraudulently obtaining state-court and bankruptcy court
orders entitling them to wrongfully convert John’s property.

13 John didn't appeal the turnover order because, even if one concedes Grodsky "owned” the note
(Petitioner can prove he never did), Grodsky's "ownership" was subject to John's purchase
money security interest. (The promissory note and security agreement evidencing this PMSI is
attached to John’s complaint as exhibit "G.”J In other words, Grodsky had only a titled interest.
John's timely filed proof of claim (complaint exhibit "KK") evidences that John was a secured
creditor who retained an undivided, 100%, equitable interest in the mortgage note. Grodsky
and/or his estate, had no, zero (0J, equity in the mortgage note. If the Respondents hadn't
been engaging in a scheme to defraud John, Trustee Adler would have abandoned the note for
lack of sufficient equity to justify its administration and returned John's property. But, he
didn't. Why? Because, the Respondents were engaging in an unlawful scheme to defraud John.

27

In other words, con-men can use lies, threats, intimidation, bribery, etc... to cheat and defraud
Granny out of the car she drives to church on Sunday and intends to give to her grandson. They
can outright steal Granny's car while she is down for her afternoon nap. Once the car is in their
possession, they can sell it, bring it to a chop-shop to be dismantled and sold for parts, or even
toss it into Lake Pontchartrain to collect insurance proceeds. The con-men can divvy-up their illgotten gains however they choose. Granny will never see her car again. But, this doesn't mean
that once Granny discovers she's been swindled, she has no legal recourse. When caught, the conartists can be held criminally and civilly liable for the damages she and her grandson sustained.
The Respondents herein are just con-men with law licenses and their two non-attorney sidekicks. They didn't steal Granny's car. They abused their (or their cohorts') status as attorneys
and judicial officers, as well as the legal system and judicial process, to steal her mortgage note a note that she owned with her grandson and was intended to pay his college tuition. John will
never see that note again. But, that doesn't mean the Respondents should not be held liable for
damages caused by the crimes they committed while swindling him and his grandma.
Petitioner could not predict that the lower court would abandon the principle of party
presentation or sua sponte reduce his suit to a single claim which it found objectionable and/or
subject to the principles of res judicata. Without affording Petitioner the opportunity to amend
his complaint to exclude the sole measure of relief it found objectionable (or which appears to
have confused the court), the 5th Circuit dismissed his entire action with prejudice.
This Writ should be granted to examine whether an entire action may be dismissed because
plaintiff asked for too much, too little, or the wrong relief and/or because his complaint included
a sole measure of relief to which he may not be entitled. (I.e., should one objectionable measure of
relief requested be dispositive in any case?)

28

Further, where a complaint states cognizable claims entitling plaintiff to his day in court to
prove his allegations and it is clear that relief can be granted under the alleged facts, this Court
should grant this Writ to examine whether it is inconsistent with the spirit of the Federal Rules
and merely an abuse of discretion for a lower court to refuse to afford plaintiffs an opportunity to
amend their complaints to exclude a single [moot) measure of relief to which they may or may
not be entitled before dismissing all remaining claims with prejudice. If not, the 5th Circuit’s
ruling must be reversed and this case must be remanded to district court so that John may pursue
the jury-trial to which he is entitled.

Conclusion
The blatant disregard for precedent and the erosion of principles fundamental to our judicial
system evidenced in this case is a matter of national importance. This remains true and, perhaps,
if certiorari is denied, it becomes even more true because the general public (i.e. "regular" people,
not trustees or presidents of bar associations or their brothers) deserve to know whether their
judicial system is working for them. If this case is any indication, it isn't. To the extent this case
evidences a departure from the accepted and usual course of judicial proceedings, it warrants an
exercise of this Court's supervisory powers. In fact, because every question presented herein was
created by the lower courts' failure to abide by this Court's precedents, clearly established law,
and federal rules, this case is ripe for summary reversal. If statute, precedent, and the U.S.
Constitution is to be adhered to at all, the following must be true:

29
(1) A bankruptcy court does not possess, and cannot bestow on itself nor can the 5th Circuit
grant it, Article III powers of United States courts.
(2) A bankruptcy court cannot dismiss a case for lack of jurisdiction with prejudice thereby
adjudicating claims over which it, admittedly, lacks authority.
(3) A bankruptcy court cannot render "Barton injunctions” prohibiting suit against defendants
for constitutional violations, torts, and crimes - whether or not they are "court-appointed"
officers - and prohibiting state courts from reviewing their own orders and judgments.
(4) Qualified immunity does not shield government officials or judicial appointees from
liability for knowing violations of clearly established law.
(5) To be entitled to assert qizasz-judicial immunity as an affirmative defense to liability, one
must actually be a "government official” or in the employ of a "government official.”
(6) "Non-appointed,” "non-employed," friends, relatives, neighbors, acquaintances, and co­
defendants of a U.S. trustee are not entitled to assert "derivative" qizasz-judicial immunity.
(7) There is no such animal as "retroactive derivative qualified immunity.” A U.S. trustee
cannot strategically "employ” his co-defendants for the purposes of providing such
immunity for crimes they committed in the three-year period prior to their employment.
The 5th Circuit's decision is not merely erroneous, it is outlandishly so. John's claims do not
"defy reality as we know it.” No Respondent is entitled to assert quasz-judicial immunity as an
affirmative defense because qualified immunity doesn't shield defendants from liability for torts
and crimes. Petitioner is entitled to damages caused by the Respondents' tortious and criminal
misconduct in furtherance of their scheme to defraud him - whether those acts occurred before
or during the administration of a bankruptcy case. To hold otherwise is inconsistent with
precedent in this Court and ah U.S. Courts of Appeal, including the 5th Circuit.
This Court should grant this Petition, summarily vacate the dismissal of John’s suits, and
remand this consolidated action to the district court for jury trial on the merits.
Respectfully Submitted,

owell
5847 Catina Street
New Orleans, Louisiana 70124
Telephone: (985) 807-6655

